                                                                  Oj$ce of Inspector Genet-a1

                                                                  U.S. Department of Homeland Security
                                                                  Washington, DC 20528




                                     October 17,2006


MEMORANDUM FOR:                  Steve Kempf
                                 Regional Director, FEMA Region I1

FROM: 
                          David M. zavadwd
                                                         /
                                                     en a for Audit
                                 Assistant Inspecx$dd%
                                               4
SUBJECT:                         Audit of Emergency Management Performance Grant
                                 Funds Awarded to the Virgin Islands Territorial
                                 Emergency Management Agency
                                 Audit Report Number DA-07-01


We audited Emergency Management Performance Grant (EMPG) funds awarded to the Virgin
Islands Territorial Emergency Management Agency (VITEMA). The objective of the audit was
to determine whether VITEMA accounted for and expended grant fbnds in compliance with
financial and program regulations.

EMPG funds may be used to develop, maintain, and improve state and local emergency
management programs. The objective of the program is to provide support for comprehensive
emergency management programs that include terrorism consequence management at the state
and local levels, and mitigation, preparedness, and response and recovery capabilities for all
hazards.

VITEMA is responsible for managing the Virgin Island's emergency management programs and
for providing fiscal oversight of EMPG funds. VITEMA received three EMPG awards totaling
$1,868,296 from the Federal Emergency Management Agency (FEMA). The grants were
awarded in fiscal years (FY) 2002,2003, and 2004 and provided 100 percent federal funding.
After FEMA awarded the grants, responsibility for managing the EMPG program was
transferred to the Department of Homeland Security (DHS) Preparedness Directorate's Office of
Grants and Training (G&T) in FY 2004. We addressed the recommendations in this report to
FEMA because they retain oversight responsibility for EMP-Gsthat they awarded.

Our audit covered the grant period October 2001 to June 2005, during which VITEMA expended
$1,800,186 and drew down $1,868,296 of FY 2002,2003 and 2004 EMPG funds. We reviewed
the appropriateness of $558,703 of these expenditures. Audit work was performed at the
VITEMA on St. Thomas, United States Virgin Islands (VI).
We performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to generally accepted government auditing standards. The audit methodology
included tests of VI and VITEMA accounting records; interviews with VI, VITEMA, and FEMA
officials; reviews of a judgmental sample of expenditures; and other auditing procedures
considered necessary under the circumstances.

                                     RESULTS OF AUDIT

VITEMA did not expend and account for all EMPG funds according to federal regulations and
EMPG guidance. We questioned $190,877 of costs claimed by VITEMA because they
improperly allocated personnel costs totaling $188,969, and professional service charges totaling
$1,908 to the grant. VITEMA also did not comply with federal and local procurement regulation
and policies in awarding $29,250 of contracted professional services. VITEMA did not follow
required cash management procedures when receiving and disbursing federal funds. In addition,
VITEMA did not comply with reporting requirements according to federal regulations, 44 Code
of Federal Regulations (CFR) § 13.41 (b)(4) and EMPG guidance.

Finding; A: Allocable Cost

VITEMA charged $188,969 to EMPG for personnel costs that should have been allocated to
other activities. For costs to be allocable, the U.S. Office of Management and Budget Circular
A-87, Cost Principles for State, Local and Indian Tribal Governments, states that a cost is
allocable to a particular cost objective if the goods or services involved are chargeable or
assignable to such cost objective in accordance with relative benefits received. VITEMA
charged 100 percent of the salaries of three employees to EMPG. However, these employees did
not spend 100 percent of their time on EMPG activities.

  1. Tkse S , p ; i d Assistant to the Director performed duties to aid the Director of VITEMA in
     the overall! management of the agency. The Special Assistant assisted with the preparation
     of the agency's 1 . ~ 4budget,
                               ~1      developed funding requests for presentation to the VI
     Legislature, and prepared periodic reports on EMPG activities for presentation to the VI
     Governor's Office.

  2. 	 The Federal Program Manager prepared grant applications and budgets for various federal
       grants, and had fiscal oversight of all federal grants awarded to VITEMA.

  3. 	 The Hazard Mitigation Planner functioned as the Pre-Disaster Mitigation (PDM)
       Coordinator and charged 100 percent of her time to EMPG. However, VITEMA had a
       separate grant for PDM activities that should have been charged its appropriate share of the
       PDM Coordinator's time.
    We question the charges as follows:

                                         Salaries                               Amount 

                                  Fiscal Charged            Time Spent         Allocable 

         Staff 
                  Year to EMPG              on EMPG'           to EMPG        Questioned
        Special Assistant         2002 $ 42,276                60%           $ 25,366         $ 16,910
        to Director               2003    41,806               60%              25,084          16,722
                                  2004    41,161               30%              12,348          28,813
        Federal Programs          2002    31,653               85%              26,905           4,748
        Manager                   2003    35,000               85%              29,750           5,250
                                  2004    35,000               85%              29,750           5,250
        Hazard Mitigation         2002    37,275                0%                   0          37,275
        Planner                   2003    37,001                0%                   0          37,001
                                  2004                          0%                   0          37,000
        Total                                                                $149.203         $188.969


    In addition, we questioned the $1,908 of professional service charges that should have been
    allocated to another program. VITEMA charged $1,908 of professional service charges for
    Community Emergency Response Team (CERT) activities to the FY 2002 EMPG. CERT is a
    former FEMA program that was transferred to the Preparedness Directorate" G&T in August
    2004.

    VITEMA, FEMA, and G&T officials initially disagreed with our findings during the exit
    conferences. They said that it is appropriate for VITEMA to allocate 100 percent of these
    employees' salary costs to EMPG because the empIsyees were engaged in preparedness
    activities that are allowable under the grant. Subsequently, we received additional
    documentation from VITEMA and FEMA related to this finding. FEMA documentation showed
    that VITEMA also received a separate PDM grant that should have been used to fund the PDM
    work of VITEMA's Hazard Mitigation Planner. Once the EMPG Program Officer was informed
    about the PDM grant, they agreed that further work was needed to determine if VITEMA
    appropriately allocated its employees' salary costs to its EMPG. We reiterate our finding. We
    also added a recommendation requesting that Region I1 require VITEMA to submit 

    documentation supporting their allocation of salary costs to their EMPG. 


        Recommendations

    We recommend that the Regional Director, FEMA Region 11:

      1. 	 Disallow the $1 90,877 of questioned costs unallocable to EMPG; pending Region 11's final
           determination about the eligibility of the VITEMA salary costs allocated to the grant.

      2. 	 Require VITEMA to submit supporting documentation that clearly identifies the PDM
           activities that benefit EMPG.



I
 We obtained the percentages from VITEMA's Director and staff because the staffs timesheets did not indicate what
work was being performed or show an allocation of time to tasks.
 3. 	 Ensure that VITEMA more accurately accounts for and charges staff time to its various
      grant programs in the future. Specifically, VITEMA should establish a timekeeping system
      that accurately captures the time its staff spends on EMPG activities.

Finding B: Improper Contracting

VITEMA did not comply with federal procurement regulations or local procurement policies
when they entered into verbal contracts valued at $29,250 for training and maintenance services.
As a result, FEMA has no assurance that the contracts were properly awarded and reasonable.
According to 44 CFR 5 13.36(b)(9), the grantee is required to maintain records detailing the
significant history of procurements, including the rationale for the method of procurement, the
basis for contractor selection, and the basis for contract price. In addition, the grantee is required
to use their own procurement procedures when not inconsistent with federal law and regulations
identified in 44 CFR 5 13.36(b)(l).

The VI Procurement Policy requires that contracts for professional services be procured through
the use of a Request for Proposal. The requesting agency must first submit a letter of request to
the VI Department of Property and Procurement for approval. Then, the contract must be sent to
the Department of Justice for a "legal sufficiency" review and, if approved, to the Governor for
final approval.

VITEMA reimbursed several contractors for various services charged to their EMPG based on
verbal agreements. VITEMA did not document the rationale for the method of procurement; the
basis for contractor selection and contract price; and did not receive the required approval from
the VI Department of Property and Procurement or the Governor's office.

V R E M officials concurred with our findings.

    Recommendation:

We recommend that the Regional Director, FEMA Region 11:

  4. 	 Require that VITEMA follow all federal regulations and their own procurement policies
       and procedures as it relates to EMPG funds expended for contracts.

  5. 	 Notify VITEMA that future grant expenditures that are based on a verbal agreement will be
       disallowed.

Finding C: Cash Management

VITEMA did not follow cash management procedures to minimize the time elapsing between
the receipt of Federal funds and the disbursing of costs incurred.

According to the Cash Management Improvement Act of 1990 (CMIA), regulations in
31 CFR 5 205.1 l(a), a State and a Federal Program Agency must minimize the time elapsing
between the transfer of funds from the U. S. Treasury and the State's payout of funds for Federal
assistance program purposes.
VITEMA received $632,810 of FY 2003 EMPG funds between March 2003 and May 2004.
VITEMA disbursed $490,657 as of July 2005. However, almost two years after funds were
received, $142,153 of FY 2003 EMPG funds remains unspent.

In addition, on May 24,2004, VITEMA received $285,334 from FEMA and allocated $126,119
for indirect costs. Of the $126,119, VITEMA accounted for $ 5 3 312 as Departmental indirect
costs. However, as of March 22,2006, $33,824 of the Departmental indirect costs had not been
expended.

VITEMA officials concurred with our findings. They are currently reviewing their records to
determine whether additional expenditures should have been charged to the grants and to
determine the exact amount of any funds that remain unspent. VITEMA expects to complete
their review in 60 days.

   Recommendation:

We recommend that the Regional Director, FEMA Region 11:

 6. 	 Require VITEMA to develop and implement cash management procedures that minimize
      the amount of time grant funds are held before being disbursed.

 7. 	 Work with VITEMA to determine the exact amount of any unspent grant funds and require
      that those refunds be refunded within 30 days of the final determination.


Finding D: Reporting Requirements

VITEMA has not provided FEMA with timely financial status and performance reports as
required by 44 CFR § 13.41 (b)(4) and the EMPG guidance. Quarterly reports are due 30 days
after the reporting period and final reports are due 90 days after the expiration or termination of   .
grant support.

VITEMA did not submit FY 2003 and FY 2004 Financial Status Reports (FSR) in a timely
manner. FEMA uses this report to monitor the status of grant funds. We reviewed two FSRs for
FY 2002, one FSR for FY 2003, and three FSRs for FY 2004 that were submitted for EMPG.
Four of the six FSRs were submitted one to four months late.

VITEMA did not submit final Performance Reports for FY 2003. Performance reports identify
the status of performance measures. The Grantee did not submit the final FY 2003 Performance
Report that was due December 30,2003.

In addition, VITEMA did not properly report on the status of performance measures. As a result,
FEMA was unable to determine whether VITEMA completed performance measures and used
grant funds effectively. According to EMPG Guidance the performance measures are the basis
for the performance report and the report should include a brief narrative describing or listing
activities completed during the reporting period and their effect (positive or negative) on the
reported progress. It further states that if the performance measure is based on other than a
numerical outcome, an indication of the timing and basis for determining that the measure has
been met must be provided.

At the end of our exit conference on July 13,2006, VITEMA officials provided us with final
FSRs for FYs 2002 through 2004, and the final Performance Report for FY 2004.

   Recommendation:

We recommend that the Regional Director, FEMA Region 11:

   8. 	 Notify VITEMA that they must comply with applicable financial and performance
        reporting requirements under EMPG.

   9. 	 Set a deadline for VITEMA to submit late reports, and state what actions FEMA will take
        if the reports are not submitted to Region I1 by the deadline.

   10. Require VITEMA to establish a process for monitoring the timely preparation and
       submission of financial status and performance reports, and to submit written requests for
       time extension.


          DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP
On July 10,2006, we provided a discussion draft report to VITEMA officials and to DHS
officials in FEMA's Region 11-Caribbean Division and Preparedness Directorate's G&T. On
July 13,2006, we conducted separate exit conferences with VITEMA officials, and Region I1
and G&T officials. VITEMA and Region I1 officials agreed with all of our findings and
recommendations, except for those cited under Finding A. As discussed under Finding A, we
reiterated the finding and made modifications to the draft report where appropriate.

Please advise this office within 30 days of the actions taken or planned to implement the
recommendations, including target completion dates for any planned actions. If you have
questions concerning this report, please contact Belinda Finn at (202) 254-4100.

cc: Michael Komack, Audit Liaison, FEMA
    Ellen Wesley, Audit Liaison, Office of Grants and Training
